1a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ARLENE ROSENBLATT, an individual,
on behalf of herself and all others
similarly situated,

No. 17-55879

D.C. No.
2:16-cv-04481Plaintiff-Appellant,
ODW-AGR

V.

CITY OF SANTA MONICA, a municipal
corporation; THE CITY COUNCIL OF
THE CITY OF SANTA MONICA,
a governing body,

OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Otis D. Wright II, District Judge, Presiding
Argued and Submitted October 12, 2018
Pasadena, California
Filed October 3, 2019
Before: Mary M. Schroeder and Jacqueline H. Nguyen,
Circuit Judges, and Michael H. Simon,* District Judge.
Opinion by Judge Nguyen

* The Honorable Michael H. Simon, United States District
Judge for the District of Oregon, sitting by designation.

2a
SUMMARY**
Civil Rights
The panel affirmed the district court’s dismissal
of a putative class action against the City of Santa
Monica and Santa Monica City Council alleging that
the City’s short-term vacation rental ordinance violates the dormant Commerce Clause.
Santa Monica’s ordinance prohibits property rentals of 30 days or less with an exception for rentals
where a primary resident remains in the dwelling.
Plaintiff is a Santa Monica resident and homeowner
who, prior to the passage of the ordinance, rented out
her house on Airbnb.
The panel first held that the ordinance is not a per
se violation of the dormant Commerce Clause because
it does not directly regulate interstate commerce. At
most, the ordinance has an interstate effect because it
makes travel lodging to Santa Monica less accessible,
available and affordable. Moreover, the ordinance penalizes only conduct in Santa Monica, regardless of
whether the visitors are in-state or out-of-state. The
panel rejected plaintiff ’s argument that the ordinance
violates the dormant Commerce Clause by directly regulating booking and payment transactions that may
occur entirely out-of-state. The panel held that the
ordinance applies evenhandedly and does not directly
** This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

3a
restrain interstate commerce although it may regulate
transactions with an interstate component. The panel
further held that nothing in the ordinance suggested
that its advertising ban was intended to have extraterritorial application.
The panel held that the ordinance does not discriminate against interstate commerce by favoring instate over out-of-state interests. The panel determined
that Santa Monica’s ban on vacation rentals applies in
the same manner to persons nationwide, including
Santa Monica residents who may be interested in renting a vacation home from another resident. The panel
further noted that the ordinance applies equally to
renters and property owners from outside California,
California residents outside of Santa Monica, and
Santa Monica residents. The panel held that the complaint did not adequately allege that the ordinance increases the relative market share of local businesses
or that it has a net negative effect on commerce outside
of California. Finally, the panel held that the complaint
failed to plausibly allege that the home-sharing exception obviously advantages Santa Monica residents at
the expense of out-of-state homeowners.
The panel held that the complaint failed to plausibly allege that the ordinance unduly burdens interstate commerce through its incidental effects. Because
plaintiff failed to show a high burden on interstate
commerce – and, at most, suggested some negligible
burden on the local economy of Santa Monica – the
complaint could not meet the standard established in
Pike v. Bruce Church, Inc., 397 U.S. 137 (1970). Thus,

4a
the complaint’s allegations did not adequately demonstrate how the alleged burden on interstate commerce
would clearly exceed the stated benefits of the ordinance.
COUNSEL
Robert L. Esensten (argued) and Jordan S. Esensten,
Esensten Law, Los Angeles, California, for PlaintiffAppellant.
Yibin Shen (argued), Chief Deputy City Attorney;
Heidi Von Tongeln and Michael R. Cobden, Deputy City
Attorneys; Lane Dilg, City Attorney; Santa Monica
City Attorney’s Office, Santa Monica, California; for
Defendants-Appellees.
OPINION
NGUYEN, Circuit Judge:
This case involves the perennial clash between a
city’s exercise of traditional police powers in regulating
land use and the rights of property owners to use their
property as they see fit. But this familiar problem has
a not-so-familiar backdrop: online marketplaces—such
as Airbnb and HomeAway—where travelers can rent
privately-owned residential properties as vacation
rentals.
Santa Monica resident Arlene Rosenblatt used to
rent out her house on Airbnb when she and her husband went on vacation. Santa Monica passed an ordinance prohibiting property rentals of 30 days or less

5a
(“vacation rentals”) with an exception for rentals
where a primary resident remained in the dwelling
(“home sharing”). Rosenblatt brought a putative class
action against the city of Santa Monica and Santa
Monica’s City Council (collectively, Santa Monica),
arguing that the ordinance violated the dormant Commerce Clause. Rosenblatt contended that the ordinance directly and indirectly regulated and burdened
interstate commerce.
The district court dismissed the amended complaint without leave to amend, concluding that Rosenblatt failed to allege a Commerce Clause violation as
a matter of law. We have jurisdiction under 28 U.S.C.
§ 1291. Reviewing de novo, see Chinatown Neighborhood Ass’n v. Harris, 794 F.3d 1136, 1141 (9th Cir.
2015), we affirm.
I.

FACTUAL
GROUND

AND

PROCEDURAL

BACK-

Santa Monica has implicitly prohibited short-term
property rentals in residential zones since at least
1988.1 In 2015, Santa Monica explicitly codified this
1

Santa Monica’s zoning ordinance authorizes property in
residential zones to be used for single- and multiple-family “dwelling
units,” and defines “dwelling” as “[a] structure or portion thereof
which is used principally for residential occupancy.” The zoning
ordinance prohibits uses that are not specifically authorized.
Single-family “R1” zones do not allow transient occupancy uses—
such as bed and breakfasts, hotels, and motels, while higherdensity residential zones allow some or all of those uses with a
conditional use permit.

6a
zoning prohibition on vacation rentals in an ordinance.
See Santa Monica Ordinance 2484 (May 12, 2015)
(codified as amended at Santa Monica Mun. Code
§§ 6.20.010-6.20.100).2 The ordinance created an exception for home sharing to allow residents to “host
visitors in their homes, for compensation . . . , while at
least one of the dwelling unit’s primary residents lives
on-site, in the dwelling unit, throughout the visitors’
stay.” Santa Monica Mun. Code § 6.20.010(a).
The ordinance defines vacation rentals to cover
situations where the unit owner or lessee rents out the
property for “exclusive transient use,” meaning that
“none of the dwelling unit’s primary residents lives onsite . . . throughout any visitor’s stay.” Id. § 6.20.010(f ).
Violations of the vacation rental ordinance are punishable by a fine not exceeding $500 and up to six months
in jail. Id. § 6.20.100(a).
In enacting this ordinance, the Santa Monica City
Council sought to preserve the city’s “available housing
stock and the character and charm which result, in
part, from cultural, ethnic, and economic diversity of
its resident population,” and “its unique sense of community which derives, in large part, from residents’
active participation in civic affairs, including local government, cultural events, and educational endeavors.”
Santa Monica Ordinance 2484, pmbl. The city council
stressed that “vacation rentals . . . are detrimental to
the community’s welfare and are prohibited by local
law, because occupants of such vacation rentals, when
2

A copy of the ordinance is attached as Appendix A.

7a
not hosted, do not have any connections to the Santa
Monica community and to the residential neighborhoods in which they are visiting” and “the presence of
such visitors within the City’s residential neighborhoods can sometimes disrupt the quietude and residential character of the neighborhoods.” Id.
Rosenblatt is a Santa Monica resident and homeowner who, prior to the ordinance, rented out her
house on Airbnb for $350 per night when she and her
husband traveled. After the city of Santa Monica enacted the ordinance, Rosenblatt sued the city and its
city council to enjoin the ordinance and recover damages on behalf of herself and a class of similarly situated individuals, claiming that the ordinance violates
the dormant Commerce Clause.
Rosenblatt alleges that the development of “an
online marketplace to list privately-owned properties
for rent on a short-term basis” allowed tourists to opt
for less expensive residential rentals over “the ultraluxurious, highly occupied, and pricey hotels in the
City.” According to Rosenblatt, Santa Monica’s real
reason for enacting the vacation rental ordinance was
to prop up demand for the city’s high-end hotels and
thereby reverse a decline in revenue from the city’s
14% transient occupancy tax, which the hotels paid
but the vacation rentals did not. The district court dismissed Rosenblatt’s initial complaint for failure to
state a claim, and Rosenblatt filed her first amended
complaint. The district court again dismissed Rosenblatt’s amended dormant Commerce Clause claims

8a
under Federal Rule of Civil Procedure 12(b)(6), this
time without leave to amend. Rosenblatt appeals.
II.

DISCUSSION
A. The dormant Commerce Clause

The Commerce Clause affirmatively grants to
Congress the power to regulate interstate commerce.
In order to advance national solidarity and prosperity,
the Supreme Court has given meaning to the Clause’s
“great silences.” H.P. Hood & Sons, Inc. v. Du Mond,
336 U.S. 525, 535 (1949). The Court refers to these
silences—the Clause’s “negative” aspect—as the
dormant Commerce Clause. See Tenn. Wine & Spirits
Retailers Ass’n v. Thomas, 139 S. Ct. 2449, 2459 (2019).
The dormant Commerce Clause “denies the States
the power unjustifiably to discriminate against or
burden the interstate flow of articles of commerce.”
Or. Waste Sys., Inc. v. Dep’t of Envtl. Quality, 511 U.S.
93, 98 (1994). “The primary purpose of the dormant
Commerce Clause is to prohibit ‘statutes that discriminate against interstate commerce’ by providing benefits to ‘in-state economic interests’ while ‘burdening
out-of-state competitors.’ ” Ass’n des Éleveurs de Canards et d’Oies du Québec v. Harris, 729 F.3d 937, 947
(9th Cir. 2013) (quoting Nat’l Ass’n of Optometrists &
Opticians v. Harris, 682 F.3d 1144, 1148 (9th Cir.
2012)); see also C & A Carbone, Inc. v. Town of Clarkstown, 511 U.S. 383, 390 (1994) (explaining that the
“central rationale” of the dormant Commerce Clause
“is to prohibit state or municipal laws whose object is

9a
local economic protectionism, laws that would excite
those jealousies and retaliatory measures the Constitution was designed to prevent”).
In reviewing challenges to local regulations under
the dormant Commerce Clause, we follow a two-tiered
approach:
[1] When a state statute directly regulates or
discriminates against interstate commerce, or
when its effect is to favor in-state economic interests over out-of-state interests, we have
generally struck down the statute without
further inquiry. [2] When, however, a statute
has only indirect effects on interstate commerce and regulates evenhandedly, we have
examined whether the State’s interest is legitimate and whether the burden on interstate
commerce clearly exceeds the local benefits.
Brown-Forman Distillers Corp. v. N.Y. State Liquor
Auth., 476 U.S. 573, 579 (1986) (citations omitted); see
also S.D. Myers, Inc. v. City & County of San Francisco,
253 F.3d 461, 466 (9th Cir. 2001). “It is well settled that
a state regulation validly based on the police power
does not impermissibly burden interstate commerce
where the regulation neither discriminates against interstate commerce nor operates to disrupt its required
uniformity.” Constr. Indus. Ass’n of Sonoma Cty. v. City
of Petaluma, 522 F.2d 897, 909 (9th Cir. 1975); see also
Village of Euclid v. Ambler Realty Co., 272 U.S. 365, 390
(1926) (upholding zoning regulations that excluded
hotels from residential areas).

10a
To succeed on her facial challenge under the dormant Commerce Clause, Rosenblatt must establish “that
no set of circumstances exists under which the [Ordinance] would be valid. The fact that [the Ordinance]
might operate unconstitutionally under some conceivable set of circumstances is insufficient to render it
wholly invalid.” S.D. Myers, Inc., 253 F.3d at 467 (alterations in original) (quoting United States v. Salerno,
481 U.S. 739, 745 (1987)). Because of this high burden,
“we construe the Ordinance narrowly and resolve any
ambiguities in favor of the interpretation that most
clearly supports constitutionality.” Id. at 468.
B. The complaint does not allege a per se
violation of the dormant Commerce
Clause
1. The ordinance does not directly regulate interstate commerce
A per se violation of the dormant Commerce
Clause occurs “[w]hen a state statute directly regulates or discriminates against interstate commerce, or
when its effect is to favor in-state economic interests
over out-of-state interests.” Daniels Sharpsmart, Inc. v.
Smith, 889 F.3d 608, 614 (9th Cir. 2018) (alteration in
original) (quoting Brown-Forman Distillers Corp., 476
U.S. at 579). A local law directly regulates interstate
commerce when it “directly affects transactions that
take place across state lines or entirely outside of the
state’s borders.” Id. (quoting S.D. Myers, Inc., 253 F.3d
at 467).

11a
a. Vacation rentals
Rosenblatt argues that the ordinance directly
regulates interstate commerce because 95% of Santa
Monica vacation rentals involve an out-of-state party.
Although we agree that vacation rentals generally
implicate interstate commerce, see Camps Newfound/
Owatonna, Inc. v. Town of Harrison, 520 U.S. 564, 573
(1997), the relevant question here is whether the ordinance directly regulates the interstate or extraterritorial aspect of the vacation rental business. See
Chinatown Neighborhood Ass’n, 794 F.3d at 1145
(“[E]ven when state law has significant extraterritorial
effects, it passes Commerce Clause muster when, as
here, those effects result from the regulation of in-state
conduct.”).
Rosenblatt relies heavily on Camps, but that case
addressed whether state law discriminated against
interstate commerce, not whether it directly regulated
it. There, a state statute provided a tax break to charitable institutions but expressly exempted institutions
that were “conducted or operated principally for the
benefit of persons who are not residents” of the state.
520 U.S. at 568. The Supreme Court concluded that
“[t]he services that [the camp] provides to its principally out-of-state campers clearly have a substantial
effect on commerce, as do state restrictions on making
those services available to nonresidents.” Id. at 574.
However, the Court recognized that “the discriminatory burden is imposed on the out-of-state customer
indirectly,” not directly. Id. at 580.

12a
When this court has considered laws directly
regulating interstate commerce, we have also distinguished between laws that directly regulate extraterritorial activity and laws that indirectly regulate
the effects of commerce. In Chinatown Neighborhood
Association, we held that a state law banning shark
fin trading survived a dormant Commerce Clause
challenge even though the law had direct effects on
commerce outside the state. 794 F.3d at 1145. We contrasted extraterritorial effects that “result from the
regulation of in-state conduct,” id., with legislation
that directly regulates interstate commerce by either
“fix[ing] prices in other states, requir[ing] those states
to adopt California standards, or attempt[ing] to regulate transactions conducted wholly out of state,” id. at
1146.
Here, Santa Monica’s ordinance does not directly
regulate interstate commerce by prohibiting vacation
rentals for Santa Monica homes. At most, Rosenblatt
alleges that the ordinance has an interstate effect because it “makes travel lodging in Santa Monica less
accessible, available, and affordable.” The ordinance
penalizes only conduct in Santa Monica, regardless of
whether the visitors are in-state or out-of-state. Accordingly, we conclude that the complaint does not sufficiently allege that the vacation-rental ban itself is a
direct regulation of interstate commerce.

13a
b. Booking and payment transactions
The ordinance makes it illegal to “undertake,
maintain, authorize, aid, facilitate or advertise any
vacation rental activity.” Santa Monica Mun. Code
§ 6.20.030. Rosenblatt argues that the ordinance violates the dormant Commerce Clause by directly regulating booking and payment transactions that may
occur entirely out-of-state. Rosenblatt’s argument relies primarily on the plurality opinion in Edgar v.
MITE Corp., 457 U.S. 624 (1982), and our decision in
Valley Bank of Nevada v. Plus System, Inc., 914 F.2d
1186 (9th Cir. 1990).
In MITE, the state law directly regulated interstate communications by preventing interstate tender
offers unless certain requirements were met. 457 U.S.
at 640. The Supreme Court held that this “direct regulation” surpassed the “incidental regulation” of interstate commerce permitted under the dormant
Commerce Clause. Id. The MITE plurality did not
opine, as Rosenblatt asserts, that “state and local laws
purporting to regulate transactions and/or commercial
offers that occur ‘across state lines’ constitute ‘a direct
restraint on interstate commerce.’ ” Appellant’s Opening Br. at 30 (quoting MITE, 457 U.S. at 641–42). The
plurality instead held that the particular state statute
at issue was “a direct restraint on interstate commerce” because it regulated conduct that “would not
affect a single [in-state] shareholder” and had “a
sweeping extraterritorial effect.” Id. at 642. A state or
local law that regulates transactions with an interstate component is not in itself problematic; the law

14a
becomes problematic when it directly regulates the interstate component of the transaction.
Valley Bank, in contrast, held that a state law regulating in-state ATM transactions did not violate the
Commerce Clause even though it directly affected
the workings of an interstate ATM network. 914 F.2d
at 1190–93. There, we rejected the ATM network’s argument that the law directly regulated interstate
commerce just because uniformity among ATMs in different states was important to the network’s efficient
operation. Id. We stressed that “the commerce clause
does not exist to protect a business’s right to do business according to whatever rules it wants,” which is especially true in industries where uniformity is not a
necessity. Id. at 1192. We also noted that a state’s law
“is not ‘discriminatory’ under the commerce clause
simply because it applies most often to out-of-staters.”
Id. We concluded that a law “that applies evenhandedly certainly passes muster under the commerce
clause.” Id. at 1193.
As discussed above, the ordinance here applies
evenhandedly. Unlike MITE, the ordinance does not
directly restrain interstate commerce although it may
regulate transactions with an interstate component.
Because every out-of-state booking and payment that
the ordinance regulates necessarily concerns property
within Santa Monica, we cannot characterize these
transactions as activities that are separate and entirely out-of-state. They are better categorized as part
of a contractual relationship that Santa Monica
properly regulates under its police power. Further,

15a
uniformity is not necessary to the vacation rental market. Even if numerous municipalities nationwide
adopted ordinances like Santa Monica’s, the national
market for vacation rental bookings and payments
would not be stifled. See Valley Bank, 914 F.2d at
1191–93; see also Exxon Corp. v. Governor of Maryland, 437 U.S. 117, 128 (1978) (stating that the Court
“has only rarely held that the Commerce Clause itself
pre-empts an entire field from state regulation, and
then only when a lack of national uniformity would
impede the flow of interstate goods”).
c. Advertising
Rosenblatt also contends the ordinance “purports
to ban wholly extraterritorial communications and
advertisements made over the Internet and in other
jurisdictions” by preventing the advertisement of
Santa Monica vacation rentals. The argument concerns section 6.20.030 of the ordinance:
No person, including any Hosting Platform operator, shall undertake, maintain, authorize,
aid, facilitate or advertise any Home-Sharing
activity that does not comply with Section
6.20.020 of this Code or any Vacation Rental
activity.
Santa Monica Mun. Code § 6.20.030(a) (2015) (emphasis added). Rosenblatt contends that the ordinance’s
reference to ‘person’ deprives any person—within or
outside of Santa Monica and regardless of whether she

16a
actually intends to rent out her property—of her right
to advertise a Santa Monica vacation rental.
Santa Monica offers a different interpretation.3
It contends that canons of construction compel us to
construe section 6.20.030 narrowly as applying only
within the city’s territorial limits. Federal courts “must
accept a narrowing construction to uphold the constitutionality of an ordinance if its language is ‘readily
susceptible’ to it.” Nunez ex rel. Nunez v. City of San
Diego, 114 F.3d 935, 942 (9th Cir. 1997) (quoting Virginia v. Am. Booksellers Ass’n, 484 U.S. 383, 397
(1988)). A California municipality “may not exercise
its governmental functions beyond its . . . boundaries,”
S.D. Myers, Inc., 253 F.3d at 473 (quoting City of Oakland v. Brock, 8 Cal.2d 639, 67 P.2d 344, 345 (1937))
3

At oral argument, Santa Monica’s counsel argued that section 6.20.030’s use of ‘person’ is limited by the second half of that
sentence, which requires any advertising to comply with section
6.20.020’s requirements for hosts who engage in home sharing.
But “person” applies to one who advertises either “any HomeSharing activity that does not comply with Section 6.20.020” or
“any Vacation Rental activity.” Underscoring this point, in 2017
Santa Monica reversed the order of these two independent
clauses: “No host shall undertake, maintain, authorize, aid, facilitate or advertise any vacation rental activity or any home-sharing activity that does not comply with Section 6.20.020. . . .”
Santa Monica Mun. Code § 6.20.030 (2017). A host “includes any
person who offers, facilitates, or provides services to facilitate, a
vacation rental or home-share, including but not limited to insurance, concierge services, catering, restaurant bookings, tours,
guide services, entertainment, cleaning, property management,
or maintenance of the residential property or unit.” Id.
§ 6.20.010(b). Rosenblatt confirmed at oral argument that her
challenge was specific to the 2015 version of the ordinance, not
the 2017 version.

17a
(emphasis omitted), and courts “presum[e] that the
legislative body intended not to violate the constitution” when enacting ordinances, City of Los Angeles v.
Belridge Oil Co., 271 P.2d 5, 11 (Cal. 1954). Courts interpreting a municipal ordinance therefore “presum[e]
that the governing body of the city was legislating with
reference to the conduct of business within the territorial limits of the city.” Id. (quoting City of Sedalia ex
rel. Ferguson v. Shell Petroleum Corp., 81 F.2d 193,
196–97 (8th Cir. 1936)). Because nothing in the ordinance here suggests that it was intended to have extraterritorial application,4 we reject Rosenblatt’s
broader construction of the ordinance’s advertising
ban.
2. The ordinance does not discriminate
against interstate commerce
We next consider Rosenblatt’s arguments that the
ordinance is a per se violation of the dormant Commerce Clause because it favors in-state over out-ofstate interests.
The party challenging legislation on dormant
Commerce Clause grounds bears the initial burden of
showing discrimination. Int’l Franchise Ass’n v. City
of Seattle, 803 F.3d 389, 400 (9th Cir. 2015). The most
4

Even if the ordinance could be construed broadly to apply
to a non-resident’s vacation rental advertising occurring wholly
outside of the city, Rosenblatt, as a Santa Monica resident, lacks
standing to challenge Santa Monica’s direct regulation of such a
transaction. See Sierra Med. Servs. All. v. Kent, 883 F.3d 1216,
1227 (9th Cir. 2018).

18a
common form of discrimination against interstate commerce is disparate impact: the “differential treatment
of in-state and out-of-state economic interests that
benefits the former and burdens the latter.” Or. Waste
Sys., Inc., 511 U.S. at 99. The Supreme Court has also
found discrimination when a law imposes costs on
out-of-staters that in-state residents would not have
to bear. See, e.g., Hunt v. Wash. State Apple Advert.
Comm’n, 432 U.S. 333, 350–51 (1977) (finding a state
law discriminatory partially because of the costs imposed on out-of-state producers as compared to in-state
producers).
Further, “local regulations that treat out-ofstaters in a disparate manner will be treated as discriminatory even though they also discriminate
against those in other parts of that state.” Erwin
Chemerinsky, Constitutional Law: Principles and Policies, § 5.3.4, at 475 (6th ed. 2019). In Dean Milk Co. v.
City of Madison, 340 U.S. 349 (1951), the Court considered an ordinance that required all milk sold in a city
to be pasteurized within five miles of the city. See id. at
351–52. The ordinance effectively prevented the sale of
milk pasteurized in other states, as well as milk pasteurized in most other parts of the state. See id. at 352.
The Court concluded that the ordinance violated the
dormant Commerce Clause because it “erect[ed] an
economic barrier protecting a major local industry
against competition from without the state.” Id. at 354.
In a footnote, the Court stressed the irrelevance of the
fact that the law also discriminated against in-state
sellers: “It is immaterial that Wisconsin milk from

19a
outside the Madison area is subjected to the same proscription as that moving in interstate commerce.” Id.
at 354 n.4.
Similarly, in Fort Gratiot Sanitary Landfill, Inc. v.
Michigan Department of Natural Resources, the Supreme Court held that a state law was discriminatory
when it limited the ability of a county to accept waste
for disposal from other counties or other states. 504
U.S. 353 (1992). Again, the Court recognized that discrimination against other counties does not change
the analysis because “a state (or one of its political subdivisions) may not avoid the strictures of the Commerce Clause by curtailing the movement of articles of
commerce through subdivisions of the State, rather
than through the State itself.” Id. at 361.
Nevertheless, the Supreme Court has been careful
to distinguish discrimination through purpose or effect—
which may violate the dormant Commerce Clause—
from the nondiscriminatory, incidental effects of a law.
In Exxon Corp. v. Governor of Maryland, 437 U.S. 117
(1978), the Court examined a state law that prohibited
petroleum producers and refiners from operating gas
stations in the state. All of the petroleum products sold
in the state were produced and refined out-of-state; the
effect of the law was to prevent all oil companies from
owning in-state gas stations, benefiting local business.
Id. at 127–28. The Court still concluded that the law
was not discriminatory:
[T]he Act creates no barriers whatsoever
against interstate independent dealers; it

20a
does not prohibit the flow of interstate goods,
place added costs upon them, or distinguish
between in-state and out-of-state companies
in the retail market. The absence of any of
these factors fully distinguishes this case
from those in which a State has been found
to have discriminated against interstate commerce.
Id. at 126.
We now address each of Rosenblatt’s specific arguments that the ordinance discriminates against out-ofstate interests.
a. Access to residential neighborhoods
First, Rosenblatt argues that Santa Monica is attempting to “preclud[e] out-of-state travelers from
accessing [residential] neighborhoods.” Given the
availability of reasonable alternatives to vacation
rentals, the ordinance does not preclude anyone from
accessing city neighborhoods. And, insofar as the ordinance might favor owners by allowing them to live in
residential neighborhoods, it does not discriminate
against persons outside of Santa Monica, who stand on
equal footing with Santa Monica residents in their
ability to purchase Santa Monica property and reside
there.
Rosenblatt relies heavily on City of Philadelphia
v. New Jersey, 437 U.S. 617 (1978), which involved a
state law that was facially discriminatory: It “prohibit[ed] the importation of most solid or liquid waste

21a
which originated or was collected outside the territorial limits” of the state. Id. at 618 (internal quotation
mark omitted). The Supreme Court explained that the
state would have been free to ban the flow of waste into
its landfills altogether, even if such a measure affected
interstate commerce. See id. at 625–26. The Court held
that the state statute, however, violated the dormant
Commerce Clause because it “discriminat[ed] against
articles of commerce coming from outside the State,” as
opposed to all waste. Id. at 626–27. It made no difference whether the state’s intent was environmental
conservation or economic protectionism because the
state provided no reason, “apart from their origin, to
treat them differently.” Id. at 627.
Here, Santa Monica’s ban on vacation rentals applies
in the same manner to persons nationwide, including
Santa Monica residents who may be interested in renting a vacation home from another resident. “Thus, it
‘visits its effects equally upon both interstate and local
business.’ ” CTS Corp. v. Dynamics Corp. of Am., 481
U.S. 69, 87 (1987) (quoting Lewis v. BT Inv. Managers,
Inc., 447 U.S. 27, 36 (1980)); see also Pharm. Research
& Mfrs. of Am. v. County of Alameda, 768 F.3d 1037,
1042 (9th Cir. 2014) (holding that local ordinance did
not directly discriminate against interstate commerce
because it “applies to all manufacturers that make
their drugs available in Alameda County—without respect to the geographic location of the manufacturer”);
Ass’n des Éleveurs de Canards et d’Oies du Québec, 729
F.3d at 949 (holding that California statute banning
the sale of products from force-fed fowl was not directly

22a
discriminatory because it “applies to both California
entities and out-of-state entities . . . regardless of
where the force feeding occurred”).
b. Support of local hotels and the cost
of travel lodging
Rosenblatt argues that Santa Monica’s purported
support of hotels discriminates against interstate
commerce by favoring local interests over out-of-state
interests. She further contends that by limiting competition for the City’s local hotels, the ordinance “increase[s] the City’s [occupancy tax] revenues at the
expense of out-of-state travelers, who must incur increased costs for travel lodging in the City.”
First, the ordinance applies equally to renters and
property-owners from outside California, California
residents outside of Santa Monica, and Santa Monica
residents themselves. By claiming otherwise, Rosenblatt asserts that the hotels represent local interests
(because of the tax revenue) and the vacation rental
industry represents out-of-state interests. As the district court correctly reasoned:
This argument is illogical. A hotel in Santa
Monica can be owned by an in-state or out-ofstate person or entity, just as would-be vacation rentals can. Similarly, Californians may
wish to rent a hotel room or vacation rental in
Santa Monica. The Ordinance treats all of
these interests equally; there is only one set of
rules, and it applies to all regardless of the
origin of the interest.

23a
Like the hotel industry, the vacation rental industry
represents both local and out-of-state interests. Moreover, the ordinance applies equally to Santa Monica
residents who wish to rent a hotel room or vacation
rental.
Second, the complaint does not adequately allege
that the ordinance increases the relative market share
of local businesses. See Exxon Corp., 437 U.S. at 126 &
n.16 (explaining that local regulations that affect interstate commerce do not discriminate, even if they
disproportionately affect out-of-state businesses, if
they do not increase the relative market share of local
businesses). Nor does the complaint plausibly allege a
net negative effect on commerce outside of California.
See Nat’l Paint & Coatings Ass’n v. City of Chicago, 45
F.3d 1124, 1132 (7th Cir. 1995) (“To determine whether
there is a disparate effect on interstate commerce . . . ,
we need to know what consumers will replace [Santa
Monica vacation rentals] with.”).
c. The lack of a residency requirement
Lastly, Rosenblatt argues that the ordinance discriminates against interstate commerce because it
“contains an unconstitutional residency requirement
allowing only Santa Monica residents to engage in
short-term rentals.” By “residency requirement,”
Rosenblatt refers to the ordinance’s exception for
home sharing, which allows short term rentals if “at
least one of the dwelling unit’s primary residents lives

24a
on-site, in the dwelling unit, throughout the visitors’
stay.” Santa Monica Mun. Code § 6.20.010(a).
Contrary to Rosenblatt’s characterization, the ordinance does not require the primary resident in the
dwelling to be the owner of the dwelling. Moreover,
Rosenblatt does not explain how the ordinance would
prevent an out-of-state homeowner who owns property
in Santa Monica from being able to extract economic
value from the property. For example, the out-of-state
owner could rent out the property on a long-term basis
with a condition that one of the rooms be used for the
owner’s short-term rentals. Or the owner could expressly allow the long-term renter to sublet a room on
a short-term basis in exchange for paying a higher
monthly rent. The ordinance also applies equally to
owners who reside in Santa Monica, or elsewhere in
California, but at a property separate from their rental
property. Accordingly, the complaint fails to plausibly
allege that the home-sharing exception obviously advantages Santa Monica residents at the expense of
out-of-state homeowners.5

5

Rosenblatt asserts that “a residency licensing requirement
cannot be saved on grounds that the statutory framework allows
an out-of-stater to undertake additional steps . . . to indirectly
obtain a license when an in-state business can obtain the license
directly.” But the cases she cites are inapposite because they involve substantially greater burdens and costs on out-of-state
residents. In Granholm v. Heald, the Supreme Court struck
down state laws that allowed in-state wineries to ship directly to
consumers while requiring out-of-state wineries to establish or
pay for distribution networks in the state, which increased
costs, sometimes prohibitively. 544 U.S. 460, 473–75 (2005). In

25a
Rosenblatt’s argument draws a false equivalence
between in- and out-of-state property owners with respect to home sharing. A “fundamental element of
dormant Commerce Clause jurisprudence” is “the principle that ‘any notion of discrimination assumes a
comparison of substantially similar entities.’ ” Dep’t of
Revenue v. Davis, 553 U.S. 328, 342 (2008) (quoting
United Haulers Ass’n, Inc. v. Oneida-Herkimer Solid
Waste Mgmt. Auth., 550 U.S. 330, 342 (2007)). Santa
Monica’s ordinance does not prohibit out-of-state
property owners from home sharing in their out-ofstate homes, nor does it prohibit them from allowing
home sharing in their Santa Monica properties. While
non-resident property owners cannot personally serve
as the primary resident whose presence is required
during the home share, that is because they are not
similarly situated to the Santa Monica residents who
can.
Thus, the complaint does not plausibly allege that
the ordinance directly regulates or burdens interstate
commerce.

Nationwide Biweekly Administration, Inc. v. Owen, we struck
down a state law that required an out-of-state company to incorporate in California in order to conduct business by mail with
California residents. 873 F.3d 716, 736–37 (9th Cir. 2017). Here,
the ordinance does not “require an out-of-state firm ‘to become a
resident in order to compete on equal terms.’ ” Id. at 736 (quoting
Heald, 544 U.S. at 475).

26a
C. The complaint does not plausibly allege
that the ordinance unduly burdens interstate commerce through its incidental
effects
Although the ordinance does not directly regulate
or burden interstate commerce, it does, as Santa
Monica concedes, implicate interstate commerce through
its incidental effects. If an ordinance regulates evenhandedly with only incidental effects on interstate
commerce, then the second step of the dormant Commerce Clause analysis—the Pike test—applies. See
Pike v. Bruce Church, Inc., 397 U.S. 137 (1970). We will
uphold an ordinance under Pike if it “effectuate[s] a
legitimate local public interest” “unless the burden
imposed on [interstate] commerce is clearly excessive
in relation to the putative local benefits.” Id. at 142
(emphasis added).
Rosenblatt contends the district court erred in
applying the Pike test at the motion to dismiss stage
because determining the excessive nature of the burden is a factual question more appropriate for summary judgment. Rosenblatt’s suggestion that issues
involving the Pike test cannot be resolved at the
12(b)(6) stage is incorrect.
“[T]he party challenging the regulation . . . must
establish that the burdens that the regulation imposes
on interstate commerce clearly outweigh the local
benefits arising from it.” Kleenwell Biohazard Waste &
Gen. Ecology Consultants, Inc. v. Nelson, 48 F.3d 391,
399 (9th Cir. 1995). As our sister circuit explained:

27a
Pike balancing is required only if the challenged
law has a discriminatory effect on interstate
commerce. And conclusory allegations of disparate impact are not sufficient; to survive the
City’s motion to dismiss, the plaintiffs needed
to plead specific facts to support a plausible
claim that the ordinance has a discriminatory
effect on interstate commerce.
Park Pet Shop, Inc. v. City of Chicago, 872 F.3d 495, 503
(7th Cir. 2017); see also N.Y. Pet Welfare Ass’n v. City of
New York, 850 F.3d 79, 91 (2d Cir. 2017) (holding that
the plaintiff “fail[ed] sufficiently to allege that the burden of selling directly to City pet shops, rather than
through distributors, will fall disproportionately on
out-of-state breeders”).
We reject Rosenblatt’s contention that her complaint survives scrutiny as long as she alleges “any
burdens on interstate commerce” and does not allege a
basis for a court to conclude “that the [o]rdinance actually serves legitimate state interests.” Her argument
misstates the Pike test. Even if the complaint alleges
facts showing that the local benefits claimed by the city
are all illusory or illegitimate, it must also plausibly
allege the ordinance places a “significant” burden on
interstate commerce. Courts may not assess the benefits of a state law or the wisdom in adopting it unless
the law “either discriminates in favor of in-state commerce or imposes a ‘significant burden on interstate
commerce.’ ” Chinatown Neighborhood Ass’n, 794 F.3d
at 1146 (quoting Nat’l Ass’n of Optometrists, 682 F.3d
at 1156). And, contrary to Rosenblatt’s contention, we

28a
presume the law serves the city’s legitimate interests;
it is Rosenblatt’s burden to plausibly allege otherwise.
See Spoklie v. Montana, 411 F.3d 1051, 1059 (9th Cir.
2005). Rosenblatt’s complaint fails to sufficiently allege that the ordinance’s effect on interstate commerce
clearly out-weighs the ordinance’s local benefits.
As we previously recognized, “[o]nly a small number of . . . cases invalidating laws under the dormant
Commerce Clause have involved laws that were genuinely nondiscriminatory” but still imposed a clearly
excessive burden on interstate commerce. Chinatown
Neighborhood Ass’n, 794 F.3d at 1146 (omission in
original) (quoting Nat’l Ass’n of Optometrists, 682 F.3d
at 1150). “These cases address state ‘regulation of activities that are inherently national or require a uniform system of regulation’—most typically, interstate
transportation.” Id. (internal citation omitted) (quoting Nat’l Ass’n of Optometrists, 682 F.3d at 1148).
The complaint does not allege that Santa Monica’s
ordinance interferes with activity that is inherently
national or requires a uniform system of regulation.
Land use regulations are inherently local. They are
not a significant burden on interstate commerce
merely because they disappoint would-be visitors from
out of state. See Spoklie, 411 F.3d at 1059 (“That a particular service or recreation appeals to out-of-staters
. . . does not impose on states an obligation to permit
it.”).
Rosenblatt argues that vacation rentals constitute
a $100 billion industry and that Santa Monica’s

29a
ordinance substantially impairs that industry. But
Rosenblatt’s complaint itself belies that argument. The
complaint alleges that the “direct result of the online
marketplace” for vacation rentals is “increased competition” for hotel revenue. The complaint then relies on
an unspecified report to allege that “81.5% of Airbnb’s
bookings are shifted from away from hotels to Airbnb.”
The complaint does not support Rosenblatt’s argument
that the ordinance impairs the national vacationrental industry; to the contrary, the complaint effectively recognizes that the ordinance likely diverts
Santa Monica’s tourism dollars from vacation rentals
to hotels. And the Supreme Court has held that “interstate commerce is not subjected to an impermissible
burden simply because an otherwise valid regulation
causes some business to shift from one interstate
supplier to another.” Exxon, 437 U.S. at 127 (rejecting
“notion that the Commerce Clause protects the particular structure or methods of operation in a retail market”); see Yakima Valley Mem’l Hosp. v. Wash. State
Dep’t of Health, 731 F.3d 843, 847 (9th Cir. 2013)
(“What is really at issue is the shifting of business from
one competitor to another, not a burden on interstate
commerce.”).
In construing inferences in Rosenblatt’s favor,
we read the complaint to allege that some of Santa
Monica’s tourism business may have been lost altogether because of the ordinance. Rosenblatt alleges
that “hotel prices in Santa Monica have increased,”
which “has resulted in a decrease in tourism and a
decrease in transient lodging use in the City.” But the

30a
complaint fails to allege the magnitude of this decrease, which we require. See S.D. Myers, Inc., 253 F.3d
at 471 (“While we do not require a dollar estimate of
the effect the Ordinance will have, we do require specific details as to how the costs of the Ordinance burdened interstate commerce.”).6 And the complaint
provides no rebuttal to the plausible explanation that
hotels may have recaptured much of the 81.5% of vacation rental bookings that allegedly had shifted to vacation rentals. The complaint does not plausibly allege
how any lost fraction of the vacation-rental business
significantly burdens commerce—let alone interstate
commerce. See Yakima Valley Mem’l Hosp., 731 F.3d at
848 (concluding that 25% decrease in medical procedure’s performance in the region after local regulations
caused hospital to lose its business to pricier hospital
“[did] not place a significant burden on interstate commerce”).
Because Rosenblatt fails to show a high burden on
interstate commerce—and, at most, suggests some negligible burden on the local economy of Santa Monica,
the complaint cannot meet the standard established
in Pike. Thus, the complaint’s allegations do not adequately demonstrate how the alleged burden on interstate commerce would clearly exceed the stated
benefits of the ordinance.
6

The complaint’s only specific allegation is that Santa Monica
“saw a 2% decrease in the number of jobs supported by tourism”
after “a steady increase of approximately 6% for the preceding
three years.” The complaint does not explain any correlation
between the loss of jobs and the passage of the ordinance.

31a
III. CONCLUSION
Rosenblatt fails to plausibly allege that Santa
Monica’s ordinance directly or indirectly discriminated
against or burdened interstate commerce. Accordingly,
we affirm the district court’s dismissal of those claims.
AFFIRMED.

Appendix A
City Council Meeting:
May 12, 2015

Santa Monica, California

ORDINANCE NUMBER 2484 (CCS)
(City Council Series)
AN ORDINANCE OF THE CITY COUNCIL
OF THE CITY OF SANTA MONICA ADDING
CHAPTER 6.20 TO THE SANTA MONICA
MUNICIPAL CODE CLARIFYING PROHIBITIONS
AGAINST VACATION RENTALS AND
IMPOSING REGULATIONS ON HOME SHARING
WHEREAS, the City consists of just eight square
miles of coastal land which is home to 90,000 residents,
the job site of 300,000 workers, and a destination for
as many as 500,000 visitors on weekends and holidays;
and
WHEREAS, Santa Monica’s primary housing
goals include preserving its housing stock and preserving the quality and character of its existing single
and multi-family residential neighborhoods. Santa
Monica’s prosperity has always been fueled by the

32a
area’s many attractive features including its cohesive
and active residential neighborhoods and the diverse
population which resides therein. In order to continue
to flourish, the City must preserve its available housing stock and the character and charm which result, in
part, from cultural, ethnic, and economic diversity of
its resident population; and
WHEREAS, the City must also preserve its unique
sense of community which derives, in large part, from
residents’ active participation in civic affairs, including
local government, cultural events, and educational endeavors; and
WHEREAS, Santa Monica’s natural beauty, its
charming residential communities, its vibrant commercial quarters and its world class visitor serving
amenities have drawn visitors from around the United
States and around the world; and
WHEREAS, the City affords a diverse array of
visitor-serving short term rentals, including, hotels,
motels, bed and breakfasts, vacation rentals and home
sharing, not all of which are currently authorized by
local law; and
WHEREAS, operations of vacation rentals, where
residents rent-out entire units to visitors and are not
present during the visitors’ stays are detrimental to
the community’s welfare and are prohibited by local
law, because occupants of such vacation rentals, when
not hosted, do not have any connections to the Santa
Monica community and to the residential neighborhoods in which they are visiting; and

33a
WHEREAS, the presence of such visitors within
the City’s residential neighborhoods can sometimes
disrupt the quietude and residential character of the
neighborhoods and adversely impact the community;
and
WHEREAS, judicial decisions have upheld local
governments’ authority to prohibit vacation rentals;
and
WHEREAS, with the recent advent of the so called
“sharing economy,” there is growing acceptance of the
longstanding practice of “home-sharing,” whereby residents host visitors in their homes for short periods of
stay, for compensation, while the resident host remains
present throughout the visitors’ stay; and
WHEREAS, long before the advent of the sharing
economy, home-sharing activities were already commonly undertaken throughout Santa Monica and
throughout the United States; and
WHEREAS, history has shown that home-sharing
activities spread the good-will of Santa Monica worldwide and have enhanced Santa Monica’s image
throughout the world; and
WHEREAS, home-sharing does not create the
same adverse impacts as unsupervised vacation rentals because, among other things, the resident hosts are
present to introduce their guests to the City’s neighborhoods and regulate their guests’ behavior; and
WHEREAS, history has shown that home-sharing
activities are relatively very small in number, when

34a
compared to the number of persons utilizing vacation
rentals or the City’s hotels and motels; and
WHEREAS, while the City recognizes that homesharing activities can be conducted in harmony with
surrounding uses, those activities must be regulated to
ensure that the small number of home-sharers stay in
safe structures and do not threaten or harm the public
health or welfare; and
WHEREAS, any monetary compensation paid to
the resident hosts for their hospitality and hosting efforts rightfully belong to such hosts and existing law
authorizes the City to collect Transient Occupancy
Taxes (“TOTs”) for vacation rentals and home-sharing
activities; and
WHEREAS, existing law obligates both the hosts
and rental agencies or hosting platforms to collect and
remit TOTs to the City.
NOW, THEREFORE, THE CITY COUNCIL OF
THE CITY OF SANTA MONICA DOES HEREBY ORDAIN AS FOLLOWS:
SECTION 1. Chapter 6.20 of the Santa Monica
Municipal Code is hereby added to read as follows:
Chapter 6.20 HOME SHARING AND VACATION RENTALS
6.20.010

Definitions

For purposes of this Chapter, the following words
or phrases shall have the following meanings:

35a
(a) Home-Sharing. An activity whereby the residents host visitors in their homes, for compensation,
for periods of 30 consecutive days or less, while at least
one of the dwelling unit’s primary residents lives onsite, in the dwelling unit, throughout the visitors’ stay.
(b) Hosting Platform. A marketplace in whatever
form or format which facilitates the Home-Sharing or
Vacation Rental, through advertising, match-making
or any other means, using any medium of facilitation,
and from which the operator of the hosting platform
derives revenues, including booking fees or advertising
revenues, from providing or maintaining the marketplace.
(c) Vacation Rental. Rental of any dwelling unit,
in whole or in part, within the City of Santa Monica, to
any person(s) for exclusive transient use of 30 consecutive days or less, whereby the unit is only approved
for permanent residential occupancy and not approved
for transient occupancy or Home-Sharing as authorized by this Chapter. Rental of units within City approved hotels, motels and bed and breakfasts shall not
be considered Vacation Rental.
6.20.020

Home-Sharing Authorization

(a) Notwithstanding any provision of this Code
to the contrary, Home-Sharing shall be authorized in
the City, provided that the Home-Sharing host complies with each of the following requirements:

36a
(1) Obtains and maintains at all times a
City Business License authorizing Home-Sharing activity.
(2) Operates the Home-Sharing activity in
compliance with all Business License permit conditions, which may be imposed by the City to effectuate
the purpose of this Chapter.
(3) Collects and remits Transient Occupancy
Tax (“TOT”), in coordination with any Hosting Platform if utilized, to the City and complies with all City
TOT requirements as set forth in Chapter 6.68 of this
Code.
(4) Takes responsibility for and actively prevents any nuisance activities that may take place as a
result of Home-Sharing activities.
(5) Complies with all applicable laws, including all health, safety, building, fire protection, and
rent control laws.
(6) Complies with the regulations promulgated pursuant to this Chapter.
(b) If any provision of this Chapter conflicts with
any provision of the Zoning Ordinance codified in
Article IX of this Code, the terms of this Chapter shall
prevail.
6.20.030

Prohibitions

(a) No person, including any Hosting Platform
operator, shall undertake, maintain, authorize, aid,

37a
facilitate or advertise any Home-Sharing activity that
does not comply with Section 6.20.020 of this Code or
any Vacation Rental activity.
6.20.050 Hosting Platform Responsibilities
The operator/owner of any Hosting Platform shall:
(a) be responsible for collecting all applicable
TOTs and remitting the same to the City. The Hosting
Platform shall be considered an agent of the host for
purposes of TOT collections and remittance responsibilities as set forth in Chapter 6.68 of this Code.
(b) disclose to the City on a regular basis each
Home Sharing and Vacation Rental listing located in
the City, the names of the persons responsible for each
such listing, the address of each such listing, the length
of stay for each such listing and the price paid for each
stay.
6.20.080

Regulations

The City Manager or his or her designee may
promulgate regulations, which may include but are not
limited to permit conditions, reporting requirements,
inspection frequencies, enforcement procedures, advertising restrictions, disclosure requirements, or insurance requirements, to implement the provisions of this
Chapter. No person shall fail to comply with any such
regulation.

38a
6.20.090

Fees

The City Council may establish and set by Resolution all fees and charges as may be necessary to effectuate the purpose of this Chapter.
6.20.100

Enforcement.

(a) Any person violating any provision of this
Chapter shall be guilty of an infraction, which shall
be punishable by a fine not exceeding two hundred
fifty dollars, or a misdemeanor, which shall be punishable by a fine not exceeding five hundred dollars, or
by imprisonment in the County Jail for a period not
exceeding six months or by both such fine and imprisonment.
(b) Any person convicted of violating any provision of this Chapter in a criminal case or found to be
in violation of this Chapter in a civil case brought by a
law enforcement agency shall be ordered to reimburse
the City and other participating law enforcement
agencies their full investigative costs, pay all back
TOTs, and remit all illegally obtained rental revenue
to the City so that it may be returned to the HomeSharing visitors or used to compensate victims of illegal short term rental activities.
(c) Any person who violates any provision of this
Chapter shall be subject to administrative fines and
administrative penalties pursuant to Chapter 1.09 and
Chapter 1.10 of this Code.

39a
(d) Any interested person may seek an injunction or other relief to prevent or remedy violations of
this Chapter. The prevailing party in such an action
shall be entitled to recover reasonable costs and attorney’s fees.
(e) The remedies provided in this Section are not
exclusive, and nothing in this Section shall preclude
the use or application of any other remedies, penalties
or procedures established by law.
SECTION 2. Any provision of the Santa Monica
Municipal Code or appendices thereto inconsistent
with the provisions of this Ordinance, to the extent of
such inconsistencies and no further, is hereby repealed
or modified to that extent necessary to effect the provisions of this Ordinance.
SECTION 3. If any section, subsection, sentence,
clause, or phrase of this Ordinance is for any reason
held to be invalid or unconstitutional by a decision of
any court of competent jurisdiction, such decision shall
not affect the validity of the remaining portions of this
Ordinance. The City Council hereby declares that it
would have passed this Ordinance and each and every
section, subsection, sentence, clause, or phrase not declared invalid or unconstitutional without regard to
whether any portion of the ordinance would be subsequently declared invalid or unconstitutional.
SECTION 4. The Mayor shall sign and the City
Clerk shall attest to the passage of this Ordinance. The
City Clerk shall cause the same to be published once

40a
in the official newspaper within 15 days after its adoption. This Ordinance shall become effective 30 days
from its adoption.

41a
United States District Court
Central District of California
ARLENE ROSENBLATT,
Plaintiff,

Case No.
2:16-CV-04481-ODW-AGR

ORDER GRANTING
MOTION TO DISMISS
CITY OF SANTA MONICA [68]
and THE CITY COUNCIL
(Filed May 24, 2017)
OF SANTA MONICA,
v.

Defendants.
I.

INTRODUCTION

This litigation has been a long exercise in whittling down Plaintiff ’s claims, and now, Defendants
make their case for dismissing Plaintiff ’s remaining
cause of action. (ECF No. 68.) Plaintiffs have opposed
Defendants’ Motion to Dismiss (ECF Nos. 69), and Defendants filed a Reply (ECF No. 71). For the reasons
discussed below, the Court GRANTS Defendants’ Motion and dismisses what remains of Plaintiff ’s case.1
II. FACTUAL AND
PROCEDURAL BACKGROUND
This case is about the legality of the City of Santa
Monica’s adoption of a 2015 ordinance banning certain
types of vacation rentals within the city. Santa Monica
1

After carefully considering the papers filed in support of
and in opposition to the Motion, the Court deems the matter appropriate for decision without oral argument. Fed. R. Civ. P. 78;
L.R. 7-15.

42a
is a popular tourist destination, and Plaintiff wishes to
rent out her home as a vacation rental to generate income. (See First Am. Compl. (“FAC”) ¶¶ 55-56.) Since
Defendants passed the Ordinance, she has not been
able to do so. (Id. ¶ 56.) Plaintiff also purports to represent a class of all residential property owners in the
City of Santa Monica, as they are likewise kept from
renting their homes on sites like Airbnb, VRBO, and
HomeAway. (See id. ¶ 57.) The ordinance at issue bans
“vacation rentals” of residential property (leasing an
entire property on a short-term basis) but allows
“home sharing” (renting a private room within a host’s
home, with the host present in other portions of the
home during the stay). (Id. ¶¶ 15(a)-(b).)
Plaintiff filed her putative class action Complaint
on June 21, 2016, and Defendants first moved to dismiss on September 18, 2016. (ECF Nos. 1, 26.) The
Court granted Defendants’ first motion in its entirety.
(ECF No. 51.) The Court granted leave to amend, and
Plaintiff filed a First Amended Complaint alleging four
causes of action: violation of the Dormant Commerce
Clause of the United States Constitution; declaratory
relief; deprivation of constitutional rights under 42
U.S.C. § 1983; and violation of the California Coastal
Act. (See generally FAC, ECF No. 52.) The California
Coastal Act claim was the only new cause of action as
compared with the original complaint. (See Compl.,
ECF No. 3; FAC.)
Following Plaintiff ’s filing of her FAC, Defendants
again moved to dismiss. (ECF No. 56.) On March 30,
2017, the Court granted in part and denied in part

43a
Defendants’ motion: it dismissed the constitutional
causes of action but not the claim for violation of the
California Coastal Act. (ECF No. 67.) The Court found
in its Order that Plaintiff had adequately pleaded two
separate bases for violations of the Act. (Order 9-10.)
On the basis that Plaintiff ’s complaint now contains only state law claims that should not properly remain in federal court, Defendants request that the
Court dismiss the remaining cause of action.
II.

LEGAL STANDARD

When a complaint in federal court includes both
federal claims and state law claims, and the federal
claims are dismissed before trial, the district court has
discretion regarding whether to exercise supplemental
jurisdiction over state law claims or dismiss them in
favor of state court. Acri v. Varian Assocs., Inc., 114 F.3d
999, 1000 (9th Cir. 1997); Carlsbad Tech., Inc. v. HIF
Bio, Inc., 556 U.S. 635, 640 (2009). However, where
other factors do not support the state law claims remaining in federal court, the general preference is for
the district court to dismiss those claims. Schneider v.
TRW, Inc., 938 F.2d 986, 993 (9th Cir. 1991); Wren v.
Sletten Const. Co., 654 F.2d 529, 536 (9th Cir. 1981).
III.

DISCUSSION

Plaintiff raises several points in opposing dismissal. First, Plaintiff argues that Defendants’ motion is
an improper successive motion to dismiss, given that

44a
the Court already ruled on a motion to dismiss the
same operative complaint. (Opp’n 4.) However, the
Court agrees with Defendants that although Plaintiff
has not filed a second amended complaint, her complaint is constructively different from the one the
Court addressed in its last Order. (See Reply 2.) This
is because new jurisdictional issues arose when the
Court dismissed all of Plaintiff ’s federal claims. Moreover, Plaintiff fails to cite a rule stating that a Defendant cannot bring more than one motion to dismiss on
the same complaint. Plaintiffs cite Rule 12(g)(2), which
actually states that “a party must not make [a second]
motion . . . raising a defense or objection that was
available to the party but omitted from its earlier motion” (emphasis added). When Defendants submitted
their first motion to dismiss this version of the complaint, the Court had not yet dismissed the federal
claims, and so arguments based on that dismissal were
not available at that time.
Second, Plaintiff cites several cases illustrating
examples of district courts retaining state law claims,
including Coastal Act claims, after dismissing federal
causes of action. (Opp’n 4-5); see, e.g., Headlands Reserve, LLC v. Ctr. for Nat. Lands Mgmt., 523
F. Supp. 2d 1113, 1120 (C.D. Cal. 2007); Spencer v.
Lunada Bay Boys, No. CV 16-02129 SJO (RAOx), 2016
WL 6818757, at *6 (C.D. Cal. July 22, 2016). Plaintiff
urges the Court to find similarly to the above-cited
cases and keep this case in federal court. While the
Court agrees that it has the discretion to keep Plaintiff ’s state law claims in federal court, it is simply not

45a
prudent to do so. Defendants have not yet filed an Answer and discovery has not commenced. As such, other
than the case having been originally filed here, there
do not appear to be any factors supporting its retention
in federal court given that only state law claims remain. Plaintiff selects district court cases, some of
which are unpublished, as examples of courts exercising their discretion to keep purely state law cases, but
she cannot overcome the Supreme Court’s overall rule
that “if [ ] federal claims are dismissed before trial . . .
the state claims should be dismissed as well.” United
Mine Workers of Am. v. Gibbs, 383 U.S. 715, 726 (1966).
Last, Plaintiff argues that she could seek leave to
amend in order to add new federal claims to her complaint. (Opp’n 5.) True, but she has not done so in the
nearly two months since all of her federal claims were
dismissed. The Court can only rule on the complaint as
it exists now, not as it could hypothetically exist in the
future.
As a final matter, because the Court decides to dismiss the California Coastal Act claim, it declines to
reconsider its earlier decision on whether Plaintiff adequately pleaded that claim. (See Mot. 1-2 (asking the
Court alternatively to reconsider its decision as to the
Coastal Act).)
VI.

CONCLUSION

For the reasons discussed above, the Court GRANTS
Defendants’ Motion to Dismiss. (ECF No. 68.) Because

46a
each of Plaintiff ’s causes of action have now been eliminated, the Clerk of Court shall close the case.
IT IS SO ORDERED.
May 24, 2017
/s/

Otis D. Wright
OTIS D. WRIGHT, II
UNITED STATES
DISTRICT JUDGE

47a
United States District Court
Central District of California
ARLENE ROSENBLATT,
Plaintiff,

Case No.
2:16-CV-04481-ODW-AGR

ORDER GRANTING
IN PART AND DENYCITY OF SANTA MONICA ING IN PART MOTION
and THE CITY COUNCIL TO DISMISS [56],
OF SANTA MONICA,
GRANTING MOTION
TO SET ASIDE
Defendants.
DEFAULT [55], AND
DENYING REQUEST
TO STRIKE [64]
v.

(Filed Mar. 30, 2017)
I.

INTRODUCTION

On December 1, 2016, the Court granted Defendants’ motion to dismiss, dismissing all of Plaintiff ’s
causes of action but allowing Plaintiff leave to amend.
(ECF No. 51.) On January 3, 2017, Plaintiff filed her
First Amended Complaint (“FAC”). (ECF No. 52.) Defendants’ response to the FAC was due on January 24,
2017; when they did not respond by that date, Plaintiff
requested entry of default. (ECF No. 53.) Three days
later, Defendants filed a motion to set aside the default
and a motion to dismiss the FAC. (ECF Nos. 55, 56.)
On February 13, 2017, Plaintiff filed an Opposition to
the motion to dismiss, and on February 24, 2017, Defendants filed their Reply. (ECF Nos. 62; 63.) Asserting
that the Reply was filed late, Plaintiffs filed a request

48a
to strike it as untimely. (ECF No. 64.) All three pending
matters are fully briefed and ready for decision.2
II.

FACTUAL BACKGROUND

Plaintiff ’s FAC alleges the same basics facts as
her original Complaint, with a few additions. The case
is about the City of Santa Monica’s 2015 adoption of
an ordinance banning “vacation rentals” of residential
property (leasing an entire property on a short-term
basis) but allowing “home sharing” (renting a private
room within a host’s home, with the host present in
other portions of the home during the stay) (“the Ordinance”). (FAC ¶¶ 15(a)-(b).) Santa Monica is a popular
tourist destination, and Plaintiff wishes to rent her
home as a vacation rental to generate income. (See id.
¶¶ 55-56.) Since Defendants passed the Ordinance, she
has not been able to do so. (Id. ¶ 56.)
Plaintiff alleges that short-term vacation rentals
in Santa Monica are critical to interstate commerce,
citing reports that Santa Monica is one of the most
popular destinations in the area, and without the
availability of vacation rentals, hotel room costs are
prohibitively expensive for many out-of-state visitors.
(Id. ¶¶ 24-27.) Plaintiff believes that the ability of vacation rentals to compete with the local hotel industry
motivated Defendants’ adoption of the Ordinance. (See
2

After carefully considering the papers filed in support of
and in opposition to the Motions, the Court deems the matters
appropriate for decision without oral argument. Fed. R. Civ. P.
78; L.R. 7-15.

49a
id. ¶ 36.) She alleges that the Ordinance’s ban on vacation rentals and on advertising vacation rentals violates the United States Constitution.
Plaintiff asserts causes of action for violation of
the dormant Commerce Clause, declaratory relief regarding the alleged constitutional violations, and deprivation of constitutional rights under 42 U.S.C.
§ 1983, which were also alleged in her original complaint, and one new cause of action: violation of the
California Coastal Act. (See Compl., ECF No. 3; FAC.)
II.

LEGAL STANDARD

A court may dismiss a complaint pursuant to
Federal Rule of Civil Procedure 12(b)(6) for lack of
a cognizable legal theory or insufficient facts pleaded
to support an otherwise cognizable legal theory.
Balistreri v. Pacifica Police Dep’t, 901 F.2d 696, 699 (9th
Cir. 1990). To survive a motion to dismiss, a complaint
need only satisfy the minimal notice pleading requirements of Rule 8(a)(2) – a short and plain statement of
the claim. Porter v. Jones, 319 F.3d 483, 494 (9th Cir.
2003). The factual “allegations must be enough to raise
a right to relief above the speculative level.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007). That is, the
complaint must “contain sufficient factual matter, accepted as true, to state a claim to relief that is plausible
on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
The determination of whether a complaint satisfies the plausibility standard is a “context-specific
task that requires the reviewing court to draw on its

50a
judicial experience and common sense.” Id. at 679. A
court is generally limited to the pleadings and must
construe all “factual allegations set forth in the complaint . . . as true and . . . in the light most favorable”
to the plaintiff. Lee v. City of L.A., 250 F.3d 668, 688
(9th Cir. 2001). But a court need not blindly accept conclusory allegations, unwarranted deductions of fact,
and unreasonable inferences. Sprewell v. Golden State
Warriors, 266 F.3d 979, 988 (9th Cir. 2001).
As a general rule, a court should freely give leave
to amend a complaint that has been dismissed, even if
not requested by the plaintiff. See Fed. R. Civ. P. 15(a);
Lopez v. Smith, 203 F.3d 1122, 1130 (9th Cir. 2000) (en
banc). However, a court may deny leave to amend when
it “determines that the allegation of other facts consistent with the challenged pleading could not possibly
cure the deficiency.” Schreiber Distrib. Co. v. Serv-Well
Furniture Co., 806 F.2d 1393, 1401 (9th Cir. 1986).
III. MOTION TO SET ASIDE
DEFAULT AND MOTION TO STRIKE
As a preliminary matter, the Court GRANTS Defendants’ motion to set aside default (ECF No. 55) and
DENIES Plaintiff ’s request to strike (ECF No. 64). Its
reasoning for granting the motion to set aside the default is simply that Plaintiff does not oppose it, and
good cause appears for doing so. (ECF No. 61.) As for
the denial of Defendants’ request to strike Plaintiffs’
Reply, the Court determines that the parties did not
have an agreement regarding the briefing schedule,

51a
and Defendants’ Reply was not otherwise late. Per the
clerk of court’s response, when parties stipulate to continue a hearing date, they are free to adopt the new
date as the marker for the briefing schedule. (See Esensten Decl., Ex. 2, ECF No. 64-1.) Further, the correspondence that Plaintiff produces does not establish
that the parties agreed to use the original hearing date
as a marker for the briefing schedule; all it shows is
that Plaintiff ’s counsel believed that the briefing deadline would be based on the original hearing date, and
the parties agreed to leave any mention of a briefing
deadline out of the stipulation. (Id.) As such, Defendants’ Reply brief was not untimely.
IV.

MOTION TO DISMISS DISCUSSION

Firstly, Plaintiff asserts that Defendants’ motion
should be denied due to their failure to meet and confer
prior to filing. (See Opp’n 8-9; L.R. 7-3.) The Court will
not decide the motion on this basis. Plaintiff acknowledges that she had notice of Defendants’ intent to file
a motion to dismiss (Opp’n 8), and she does not claim
any prejudice as a result of an apparently minimal
meet and confer. (See generally id.) In fact, she claims
that Defendants suffered as a result of their failure to
meet and confer, since they argued unnecessary points
that could have been avoided through a proper discussion with opposing counsel. (Id.) While the Court can
assume that Plaintiff suffered prejudice as a result of
having to respond to these extraneous arguments,
Plaintiff makes no such claim outright, and because

52a
Defendants did not file their motion without warning,
the Court will not base its decision on this argument.
As Plaintiff concedes, her first, second, and third
causes of action are all based on violations of the
dormant Commerce Clause. (Opp’n 9.) Therefore, the
Court will analyze those causes of action together.
A. Dormant Commerce Clause-Based Claims
Because the Court finds that Plaintiff has failed to
state a claim for which relief can be granted under the
dormant Commerce Clause, none of Plaintiff ’s claims
that rely on the dormant Commerce Clause survive
Defendants’ motion to dismiss.
1. Legal Standard
The so-called dormant Commerce Clause “denies
the States the power unjustifiably to discriminate
against or burden the interstate flow of articles of commerce.” Rocky Mountain Farmers Union v. Corey, 730
F.3d 1070, 1087 (9th Cir. 2013) (internal quotation
marks omitted). In determining whether a law violates the dormant Commerce Clause, a court must first
consider whether it discriminates on its face against
interstate commerce or has a discriminatory effect.
American Trucking Assns., Inc. v. Michigan Pub. Serv.
Comm’n, 545 U.S. 429, 433 (2005). In the relevant context, “discrimination” means “differential treatment of
in-state and out-of-state economic interests that benefits the former and burdens the latter.” Or. Waste Sys.,

53a
Inc. v. Dep’t of Envtl. Quality of Or., 511 U.S. 93, 99
(1994). In addition, a law will violate the Commerce
Clause where it directly regulates interstate commerce, either by having an extraterritorial reach or
an extraterritorial effect. Brown-Forman Distillers
Corp. v. N.Y. State Liquor Auth., 476 U.S. 573, 583
(1986). If the court finds that the law is not facially discriminatory and does not directly regulate interstate
commerce, the law “will be upheld unless the burden
imposed on [interstate] commerce is clearly excessive
in relation to the putative local benefits.” Pike v. Bruce
Church, Inc., 397 U.S. 137, 142 (1970). The party challenging the statute on dormant Commerce Clause
grounds bears the burden of showing discrimination.
Int’l Franchise Ass’n, Inc. v. City of Seattle, 803 F.3d
389, 400 (9th Cir. 2015).
2. Application to Plaintiff ’s First Cause of
Action
The Court finds that the Ordinance does not facially discriminate against or directly regulate interstate commerce and that its burdens do not overwhelm
its local benefits.
i. Facial Discrimination or Direct Regulation
First, Plaintiff argues that the Ordinance “directly
regulates” interstate commerce and should be considered per se invalid under the dormant Commerce
Clause. (Opp’n 10-13.) In support, she contends that
the Ordinance affects transactions for Santa Monica

54a
home rentals that extend across state lines and transactions that involve residents of different states. (Id.)
Further, she argues that the Ordinance negatively impacts interstate travel and the national economy, thus
meeting the Brown-Forman standard for “extraterritorial effect.” See 476 U.S. at 583.
Second, Plaintiff asserts that the Ordinance purposefully discriminates against out of state residents.
(Opp’n 17.) She argues that because the Ordinance’s
purpose in banning vacation rentals is to avoid the
negative effects of having travelers with no connection
to Santa Monica in the city’s residential neighborhoods, the Ordinance facially discriminates against
foreign travelers.
The Court is not persuaded by these arguments.
Simply because Internet payments, advertising, and
communications for these vacation rental transactions
extend over state lines or between residents of different states does not bring them within the definition of
interstate commerce. No precedent has so held; indeed,
courts finding direct regulation of interstate commerce
consistently require restraint or control over wholly
extra-territorial transactions and/or conduct. Cf. Ass’n
des Eleveurs de Canards et d’Oies du Quebec v. Harris,
729 F.3d 937, 949-50 (9th Cir. 2013) (finding no dormant Commerce Clause violation where a statute
banned the sale within California of foie gras produced
from force-feeding birds, which Plaintiffs (unpersuasively) argued directly regulated farmers’ conduct outside of California if they wished to import products into
the state); see also Estate of Graham v. Sotheby’s Inc.,

55a
860 F. Supp. 2d 1117, 1124 (C.D. Cal 2012) (deciding
that a statute requiring royalty payments in sales of
art involving a California-based seller violated the
dormant Commerce Clause because it controlled all
sales of art regardless of location, so long as the seller
resided in California); Healy v. Beer Institute, Inc., 491
U.S. 324, 337 (1989) (determining that a statute requiring alcohol importers to affirm that prices are no
higher than the prices being charged in bordering
states violated the dormant Commerce Clause).
The transactions at issue primarily take place in
California – that is where the properties are located.
Plaintiff has not shown how the Ordinance could affect
the home rental markets in other states or restrain
transactions that hinge on goods or services outside of
Santa Monica or California. The Court thus finds no
support for the argument that the Ordinance directly
regulates interstate commerce.
Further, the Ordinance does not facially discriminate against out-of-state interests. It treats them exactly the same as in-state interests: neither may
operate short-term vacation rentals within the City.
The case at bar is easily distinguishable from City of
Philadelphia v. New Jersey, for example, which establishes that a state cannot ban the importation of a commercial product (in that case, solid waste for disposal)
while still allowing the product if generated within its
borders. 437 U.S. 617, 626-27 (1978). In attempting to
overcome this, Plaintiff pits hotels, which she purports
represent local interests, against vacation rentals, representing out-of-state interests, to illustrate that the

56a
Ordinance favors local interests. This argument is illogical. A hotel in Santa Monica can be owned by an instate or out-of-state person or entity, just as would-be
vacation rentals can. Similarly, Californians may wish
to rent a hotel room or vacation rental in Santa Monica. The Ordinance treats all of these interests equally;
there is only one set of rules, and it applies to all regardless of the origin of the interest. Therefore, the
Court finds that the Ordinance does not discriminate
against out-of-state interests.
ii. Relative Burdens and Benefits
As the Court finds no facial discrimination or direct regulation of interstate commerce, it must now determine whether the statute’s burdens on interstate
commerce “clearly” outweigh its benefits. See Pike, 397
U.S. at 142. The Court considered this issue in deciding
Defendants’ first motion to dismiss, and this time, it
finds no differently. Plaintiff attempts to supplement
her allegations in this area by including statements
about the Ordinance’s effects in her FAC. For instance,
she alleges that as a result of the Ordinance, hotel
prices in Santa Monica have increased, that tourism
and tourism-related jobs have decreased in the City,
and that middle-class homeowners are now deprived of
a valuable source of income. (FAC ¶¶ 18, 53.) In addition, Plaintiff claims that the vacation rental industry
is a $100 billion industry nationally, a “significant portion” of which is attributable to Santa Monica. (Id.
¶¶ 19, 69(e).) Thus, banning this industry allegedly

57a
constitutes a burden on interstate commerce in that it
damages the nation economy. (See Opp’n 5.)
These additional allegations are insufficient because they do not demonstrate a high burden on interstate commerce; instead, they suggest burdens on the
local economy of Santa Monica and some unspecified
impact on the national economy. The benefits of the Ordinance, namely the preservation of housing stock and
the quality and character of City neighborhoods, are
much more concrete. (See FAC ¶ 50 (outlining the Ordinance’s stated purpose).) Vague allegations about the
disruption of the economy cannot overwhelm these
benefits, especially in light of Pike’s “clearly excessive”
standard. Pike, 397 U.S. at 142. Out-of-state visitors
can still access Santa Monica, whether through traditional hotel rentals or through home sharing on sites
like Airbnb, which the Ordinance explicitly permits
(subject to certain parameters). (See id. ¶¶ 42-43.) As
such, under Pike, Plaintiff ’s allegations regarding relative burdens and benefits are inadequate. 397 U.S. at
142. The Court finds that Plaintiff has failed to state a
claim for violation of the dormant Commerce Clause
upon which relief can be granted. Therefore, the Court
GRANTS Defendants’ motion to dismiss Plaintiff ’s
first cause of action. Because Plaintiff has already had
an opportunity to amend her complaint with respect to
this claim, the dismissal is without leave to amend.

58a
3. Effect on Plaintiff’s Second and Third
Causes of Action
Plaintiff ’s second cause of action is for declaratory
relief, and her third is for deprivation of constitutional
rights under 42 U.S.C. § 1983. As stated above, Plaintiff concedes that her second and third causes of action are contingent on a finding of a violation of the
dormant Commerce Clause. (See Opp’n 9.) Therefore,
these causes of action are also DISMISSED without
leave to amend by virtue of the fact that the Court
dismisses Plaintiff ’s first cause of action for the underlying dormant Commerce Clause violation.
V.

CALIFORNIA COASTAL ACT

In her FAC, Plaintiff alleges a new cause of action:
violation of the California Coastal Act. The Act creates
a Coastal Commission for California communities lying in whole or in part within the “coastal zone,” which
covers roughly 1,000 yards from the high tide land inland. Cal. Pub. Res. Code § 30103(a). The Act grants
the Commission the authority to approve development
in coastal communities, and it has as its purpose preserving and increasing access to one of California’s valuable natural resources: its coastline. See generally id.
§§ 30000 et seq. The Act directs coastal communities to
file with the Commission a Local Coastal Program
(“LCP”) outlining their compliance with the policies of
the Act. Id. § 30500.
Plaintiff claims that Defendants failed to submit
to the Commission a certified LCP prior to enacting the

59a
Ordinance, and further, that the ban constitutes “development” under the Act as it represents a change
in access to the coast. (FAC ¶¶ 86; 88(a).) Moreover,
Plaintiff alleges that the Ordinance is at odds with the
policies of the Act because it decreases access to the
coastal zone within Santa Monica’s borders. (Id. ¶¶ 8485.)
Defendants argue in response that the Coastal Act
has no authority to override local legislation; instead,
the Commission can only exert control over coastal development (as contrasted with regulations regarding
land use). (See Mot. 16-18.)
While the Court agrees with Defendants’ position
that California case law makes it likely that the Commission does not have unrestricted authority to override local land use regulations such as the Ordinance,
see City of Malibu v. Cal. Coastal Comm., 206 Cal. App.
4th 549, 557 (2012), Plaintiff also alleges that Defendants failed to submit an LCP and that the Ordinance
conflicts with the overall policies of the Act. Further,
Malibu involved a city going back and forth with the
Coastal Commission regarding amendments to its
LCP; here, Plaintiff alleges that Defendants never submitted an LCP prior to enacting the Ordinance. See
Malibu, 206 Cal. App. 4th at 557; (FAC ¶ 88(a).) As
such, Defendants cannot show that Plaintiff has stated
no claim on which relief can be granted under the California Coastal Act. The Court thus DENIES Defendants’ motion to dismiss as to Plaintiff ’s fourth cause of
action.

60a
VI.

CONCLUSION

For the reasons discussed above, the Court
GRANTS Defendants’ motion to dismiss as to Plaintiff ’s first, second, and third causes of action, and DENIES it as to Plaintiff ’s fourth cause of action. (ECF
No. 56.) Also, the Court GRANTS the motion to set
aside default (ECF No. 55) and DENIES the request
to strike (ECF No. 64.)
IT IS SO ORDERED.
March 30, 2017
/s/

Otis D. Wright
OTIS D. WRIGHT, II
UNITED STATES
DISTRICT JUDGE

61a
United States District Court
Central District of California
ARLENE ROSENBLATT,
Plaintiff,

Case No.
2:16-CV-04481-ODW-AGR

ORDER GRANTING
MOTION TO DISMISS
CITY OF SANTA MONICA [26] AND DISMISSING
and THE CITY COUNCIL AS MOOT PLAINTIFF’S
OF SANTA MONICA,
MOTION FOR CLASS
CERTIFICATION
Defendants.
AND MOTION FOR
A PRELIMINARY
INJUNCTION [19] [20]
v.

(Filed Dec. 1, 2016)
I.

INTRODUCTION

This case is about the rights of residential property owners in the City of Santa Monica to rent out
their property on a short-term basis through online
services such as Airbnb and HomeAway. (See generally
Compl., ECF No. 3.) Plaintiff Rosenblatt filed suit
against the City of Santa Monica and the City Council
of Santa Monica, claiming to represent a putative class
of persons restricted from engaging in property rentals and asserting that Santa Monica’s Ordinance
No. 2484CCS (“the Ordinance”) infringes on her constitutional right to rent out her property. (Id.) Rosenblatt has moved to certify a class of similarly situated
persons and asked the Court to issue a preliminary
injunction against enforcement of the Ordinance.
(Mot. for Class Cert., ECF No. 19; Mot. for a Prelim.

62a
Injunction, ECF No. 20.) Defendants have responded
with a Motion to Dismiss. (ECF No. 26.) These matters
are all currently pending before the Court, and the
Court addresses them together in this Order.1
For the reasons discussed below, the Court
GRANTS Defendants’ Motion to Dismiss and DISMISSES AS MOOT Plaintiff ’s Motion for Class Certification and Motion for a Preliminary Injunction.
II.

FACTUAL BACKGROUND

The City of Santa Monica (“Santa Monica” or
“City”) is a coastal city in Southern California. (See
Compl. ¶ 10.) Santa Monica is a hugely popular tourist
destination, with a booming local hotel business and a
burgeoning short-term residential rental market. (Id.)
In May 2015, the City adopted the Ordinance, which
allows some types of home rentals on a restricted basis.
(See Santa Monica Municipal Code (“SMMC”) 6.20, Ex.
1., ECF No. 4.) The Ordinance permits property owners
to obtain a license in order to rent out their property
on a short-term basis, subject to certain conditions:
the rental must not exceed thirty days, and the primary resident of the property must remain on-site
(See id.) In effect, this constitutes a “home-sharing”2
1

After carefully considering the papers filed in support of
and in opposition to the Motions, the Court deems the matters
appropriate for decision without oral argument. Fed. R. Civ. P.
78; L.R. 715.
2
The Ordinance uses the term “home-sharing” and defines
it as: “An activity whereby the residents host visitors in their
homes, for compensation, for periods of 30 consecutive days or

63a
arrangement rather than a full vacation rental. Santa
Monica views this as an appropriate compromise between property owners’ desires for quality residential
neighborhoods and their desire to make money through
short-term rentals. (See id.) Rosenblatt disagrees; her
perspective is that the Ordinance’s ban on full vacation
rentals violates the Commerce Clause of the United
States Constitution and constitutes a “taking” for which
just compensation is required per the Fifth Amendment of the Constitution. (See Compl. ¶¶ 65-93.) In
addition, Rosenblatt asserts that the Ordinance also
harms a class consisting of all property owners in
Santa Monica. (Mot. to Certify Class 13.)
II.

LEGAL STANDARD

A court may dismiss a complaint pursuant to
Federal Rule of Civil Procedure 12(b)(6) for lack of
a cognizable legal theory or insufficient facts pleaded
to support an otherwise cognizable legal theory.3
Balistreri v. Pacifica Police Dep’t, 901 F.2d 696, 699 (9th
Cir. 1990). To survive a motion to dismiss, a complaint
need only satisfy the minimal notice pleading requirements of Rule 8(a)(2)—a short and plain statement of
the claim. Porter v. Jones, 319 F.3d 483, 494 (9th Cir.
2003). The factual “allegations must be enough to raise
less, while at least one of the dwelling unit’s primary residents
lives on-site, in the dwelling unit, throughout the visitors’ stay.”
3
Because the Court finds that Plaintiff ’s Motion for Class
Certification and Motion for a Preliminary Injunction should be
dismissed as moot, it does not discuss the pertinent legal standard for those Motions.

64a
a right to relief above the speculative level.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007). That is, the
complaint must “contain sufficient factual matter, accepted as true, to state a claim to relief that is plausible
on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
The determination whether a complaint satisfies
the plausibility standard is a “context-specific task
that requires the reviewing court to draw on its judicial experience and common sense.” Id. at 679. A court
is generally limited to the pleadings and must construe
all “factual allegations set forth in the complaint . . . as
true and . . . in the light most favorable” to the plaintiff.
Lee v. City of L.A., 250 F.3d 668, 688 (9th Cir. 2001).
But a court need not blindly accept conclusory allegations, unwarranted deductions of fact, and unreasonable inferences. Sprewell v. Golden State Warriors, 266
F.3d 979, 988 (9th Cir. 2001).
In addition, Federal Rule 12(b)(1) allows a party
to raise the defense of subject matter jurisdiction in a
Motion to Dismiss. “[T]hose who seek to invoke the
jurisdiction of the federal courts must satisfy the
threshhold requirement imposed by Article III of the
Constitution by alleging an actual case or controversy.”
City of Los Angeles v. Lyons, 461 U.S. 95, 101 (1983).
Article III restricts the federal “judicial power” to the
resolution of “Cases” and “Controversies,” and this
case-or-controversy requirement is met where the
plaintiff has standing to bring his or her suit. Lujan v.
Defenders of Wildlife, 504 U.S. 555, 559-60 (1992); see
also Cetacean Cmty. v. Bush, 386 F.3d 1169, 1174 (9th
Cir. 2004). To satisfy Article III standing, a plaintiff

65a
must show that (1) he has suffered an “injury in fact”
that is concrete and particularized and actual or imminent, not conjectural or hypothetical; (2) the injury is
fairly traceable to the challenged actions of the defendant; and (3) it is likely, as opposed to merely speculative, that the injury will be redressed by a favorable
decision. Bernhardt v. Cnty. of L.A., 279 F.3d 862, 86869 (9th Cir. 2002) (citing Friends of the Earth, Inc.
v. Laidlaw Envtl. Servs., Inc., 528 U.S. 167, 180-81
(2000)). If a plaintiff fails to show that she has standing, her case should be dismissed. See Lyons, 461 U.S.
at 101.
As a general rule, a court should freely give leave
to amend a complaint that has been dismissed, even if
not requested by the plaintiff. See Fed. R. Civ. P. 15(a);
Lopez v. Smith, 203 F.3d 1122, 1130 (9th Cir. 2000) (en
banc). However, a court may deny leave to amend when
it “determines that the allegation of other facts consistent with the challenged pleading could not possibly
cure the deficiency.” Schreiber Distrib. Co. v. Serv-Well
Furniture Co., 806 F.2d 1393, 1401 (9th Cir. 1986).
III.

DISCUSSION

Defendants’ Motion to Dismiss attacks Plaintiff ’s
case on several fronts: it argues that Rosenblatt does
not have standing to bring this case, and it addresses
each of her claims in turn, claiming that each fails as
a matter of law. (See Mot. to Dismiss.)

66a
A. Standing
Defendants’ standing argument fails. The Court
instead finds that each of Plaintiff ’s claims fail for
individual reasons. On the issue of standing, Defendants argue that Rosenblatt cannot show that she has
suffered harm and cannot show that her claim is redressable. See Bernhardt 279 F.3d at 868-69. (Mot. to
Dismiss 7.) Defendants’ redressability arguments are
based on the fact that a Santa Monica zoning ordinance, enacted years prior to the Ordinance’s enactment, would take effect to ban vacation rentals even if
the Court found the Ordinance unconstitutional. (Mot.
to Dismiss 7.) The Court agrees with Plaintiffs: Defendants would not be able to avoid a finding that the
ban on vacation rentals is unconstitutional by enforcing another statute containing the same unconstitutional language. See Inst. Of Cetacean Research v. Sea
Shepherd Conservation Soc’y, 774 F.3d 935, 949 (9th
Cir. 2014) (holding that a district court may properly
find a breach of an injunction where the conduct violated the spirit of the injunction, even if not the strict
letter of the injunction). Further, Rosenblatt can show
she has suffered an injury in fact, as she alleges was
able to operate a vacation rental of her home prior to
the enforcement of the Ordinance. (Compl. ¶ 54.) The
fact that the City enacted the Ordinance establishes
the link between the harm and the Defendants’ actions. (See id. ¶ 11.) As such, the Court will not dismiss
Rosenblatt’s claim for lack of standing.
However, the Court finds that each of Rosenblatt’s
claims can be dismissed for other reasons.

67a
B. Rosenblatt’s First and Second Claims: Dormant
Commerce Clause
The first and second claims in Rosenblatt’s Complaint allege violations of the negative implications of
the Commerce Clause. (Id. ¶¶ 65-76.) Rosenblatt claims
that the Ordinance discriminates against and constitutes an excessive burden on interstate commerce. (Id.)
The Supreme Court has long interpreted the
Commerce Clause of the United States Constitution
to include a negative restraint, the so-called Dormant
Commerce Clause, which restricts states’ abilities to
regulate interstate commerce. See, e.g., United Haulers
Ass’n, Inc. v. Oneida-Herkimer Solid Waste Management Authority, 550 U.S. 330, 338 (2007). In determining whether a law violates the Dormant Commerce
Clause, a court must first consider whether it discriminates on its face against interstate commerce or has a
discriminatory effect. American Trucking Assns., Inc. v.
Michigan Pub. Serv. Comm’n, 545 U.S. 429, 433 (2005).
In the relevant context, “discrimination” means “differential treatment of in-state and out-of-state economic
interests that benefits the former and burdens the latter.” Oregon Waste Sys., Inc. v. Dep’t of Env. Quality of
Ore., 511 U.S. 93, 99 (1994). Second, “Where the statute
regulates even-handedly to effectuate a legitimate local public interest, and its effects on interstate commerce are only incidental, it will be upheld unless the
burden imposed on such commerce is clearly excessive
in relation to the putative local benefits.” Pike v. Bruce
Church, Inc., 397 U.S. 137, 142 (1970).

68a
Applying the first step of the Dormant Commerce
Clause analysis, the Ordinance does not facially discriminate against interstate commerce. Per Oregon
Waste Systems, the Ordinance does not promote differential treatment of in-state and out-of-state interests.
See 511 U.S. at 99. The Ordinance prohibits vacation
rentals of any residential property, no matter whether
the property owner is a California resident or not. See
SMMC 6.20. In addition, the Court rejects Rosenblatt’s
argument that the home-sharing provision of the Ordinance acts as a residency requirement. (See Opp’n
16, ECF No. 40.) Rosenblatt argues that requiring
a primary resident to live on site in any property
being used for home-sharing effectively discriminates
against out-of-state property owners. (Id.) However,
nothing in the Ordinance requires that the primary
resident be the property owner. See SMMC 6.20. By its
definition, home-sharing means that at least one person must reside full-time in the property. Whether that
person is the owner, a tenant, or even a sub-tenant is
not dictated or proscribed. See id. And while it is true
that out-of-state owners of Santa Monica property
wishing to rent their property through home-sharing
must undertake an additional step to do so—renting first to a “primary resident” tenant—that extra
step would also be required of in-state owners of
Santa Monica property who choose to engage in homesharing but do not wish to live in the subject property
themselves. In sum, the Ordinance does not create any
sort of division between individuals or entities who are
based on California versus those who are based out-ofstate. Vacation rentals are banned for all residential

69a
properties, and home-sharing is available to any primary resident of Santa Monica residential property
who applies for a license. See SMMC 6.20.
Because there is no discrimination found in the
Ordinance, whether facially or in effect, the Court
turns to whether any effect the Ordinance has on interstate commerce outweighs the local benefits. See
Pike, 397 U.S. at 142. Rosenblatt’s primary argument
here is that the Ordinance furthers local interests of
promoting City hotels at the expense of individuals
who would otherwise be able to lease their homes as
short-term vacation rentals. (Opp’n 15.) With this in
mind, it is possible that an effect of the Ordinance
could be a lessened volume of interstate tourists visiting Santa Monica and/or a forced directing of those
tourists to area hotels or home-shares. On the other
hand, the local benefits of the Ordinance might include
the preservation of the character of Santa Monica
neighborhoods and continued access to housing units
for full-time renters rather than vacationers. Ultimately, the Court finds that the potential local benefits
of the Ordinance outweigh any effect on interstate commerce. As Rosenblatt notes in her Complaint, Santa
Monica is “one of the most popular and desirable destinations in the country.” (Compl. ¶ 10.) Rosenblatt has
not demonstrated that the non-availability of vacation
rentals will change this. Moreover, if tourists wish to
rent a space other than a traditional hotel, that option
will remain available to them within the bounds of
the ordinance. See SMMC 6.20. Overall, there is no
discrimination against out-of-staters present in the

70a
Ordinance, and any speculative effect it may have on
interstate commerce is outweighed by the benefits the
Ordinance will bring the City. As a result, the Court
GRANTS Defendants’ Motion to Dismiss with respect
to Rosenblatt’s first and second claims. The Court further grants Rosenblatt leave to amend within thirty
days from the date of this Order.
C. Rosenblatt’s Third and Fourth Claims: Inverse Condemnation and the Takings Clause
of the Fifth Amendment
In her third and fourth claims, Rosenblatt invokes
the Fifth Amendment of the United States Constitution to allege that her property value has been reduced
as a result of the Ordinance. (Compl. ¶¶ 77-93.) Rosenblatt argues that because she suffered a reduction in
property value, she is entitled to just compensation.
(Id.)
These claims are defective because Rosenblatt has
not alleged that she has exhausted her remedies in
state court. The Supreme Court has held that a property owner cannot bring a claim for just compensation
in federal court without first seeking available remedies in state court, if the state provides an adequate
procedure for doing so. Williamson Cnty. Regional Planning Comm’n v. Hamilton Bank of Johnson City, 473
U.S. 172, 195 (1985). California provides such a remedy. Cal. Code Civ. P. § 1245.260 (1982) (permitting a
property owner to bring an inverse condemnation action to obtain just compensation for an alleged taking

71a
of property); see also Cassettari v. Nevada County, Cal.,
824 F.2d 735 (9th Cir. 1987). Here, Rosenblatt does not
allege that she sought just compensation in the California state courts prior to filing this federal action.
Rosenblatt attempts to argue that Supreme Court case
San Remo Hotel, L.P. v. City and County of San Francisco, 545 U.S. 323 (2005) allows plaintiffs to bring
Fifth Amendment takings claims directly in federal
court, but this is incorrect. (See Opp’n 16.) The plaintiff
in San Remo Hotel relied on an exception that had previously allowed such a direct federal takings case, but
the Court noted that petitioners would no longer be
permitted to use the exception following its holding in
Lingle v. Chevron USA Inc., 544 U.S. 528 (2005). See
San Remo Hotel, 545 U.S. at 346, fn. 25. There is no
exception to the rule that plaintiffs must first advance
their Fifth Amendment takings claims in state court in
order to bring a federal case for just compensation. As
a result, the Court GRANTS Defendants’ Motion to
Dismiss as to Rosenblatt’s third and fourth claims. The
Court does not deny leave to amend, but it notes that
Rosenblatt cannot further advance her Fifth Amendment claims in federal court until she exhausts her
available state remedies.
D. Rosenblatt’s Fifth Claim: 28 U.S.C. § 2201, et
seq.
In her fifth claim, Rosenblatt alleges that she is
entitled to declaratory relief pursuant to 28 U.S.C.
§ 2201, et seq. Section 2201 allows a district court to
declare the rights of the party seeking declaratory

72a
relief, with such declaration having the force and effect
of a final judgment or decree. 28 U.S.C. § 2201(a). In
order for a court to have this power, however, the party
seeking declaratory relief must present at least one
otherwise independent federal claim. See Aetna Life
Ins. Co. of Hartford, Conn. v. Haworth, 300 U.S. 227,
240 (1937). A Section 2201 claim cannot stand on its
own; it is procedural only. Id. Some other claim conferring federal jurisdiction must accompany it. Id. Here,
the Court has dismissed Rosenblatt’s substantive
claims (claims one through four). As such, there is no
ground on which a Section 2201 claim can stand, and
it too must be dismissed. The Court grants Rosenblatt
leave to amend within thirty days from the date of this
Order.
E. Rosenblatt’s Sixth Claim: 42 U.S.C. § 1983
This claim fails for a similar reason. Section 1983
provides a basis for a civil action for deprivation of constitutional rights, and Rosenblatt claims that the Ordinance violates her constitutional rights under the
Commerce Clause and the Fifth Amendment. See 42
U.S.C. § 1983. (See generally Compl.) However, in order
to maintain such an action, a plaintiff must show that
she is entitled to individually enforceable rights in the
relevant context. Gonzaga University v. Doe, 536 U.S.
273, 285 (2002).
Rosenblatt cannot make this requisite showing. As
discussed, she cannot state a claim under either the
Commerce Clause or the Fifth Amendment. Therefore,

73a
there is no constitutional “hook” onto which § 1983 can
attach in order to provide a civil remedy.
Further, Rosenblatt cannot state a takings claim
independently under § 1983 because she has not exhausted her state compensation remedies. See Monterey v. Del Monte Dunes, Ltd., 526 U.S. 687, 721 (1999)
“A federal court . . . cannot entertain a takings claim
under § 1983 unless or until the complaining landowner has been denied an adequate post deprivation
remedy [by the state].”).
Defendants’ Motion to Dismiss as to Rosenblatt’s
sixth claim is thusly GRANTED. The Court grants
Rosenblatt leave to amend within thirty days from the
date of this Order.
F. Outstanding Claims and Motions
Because each of Rosenblatt’s claims has been dismissed, the Court does not consider Rosenblatt’s Motion for Class Certification, Motion for a Preliminary
Injunction, or Defendants’ assertion that Rosenblatt’s
claims against the City Council must be dismissed because it is entitled to legislative immunity. (See Mot. to
Dismiss 25.) All claims are dismissed as to all defendants.
IV.

CONCLUSION

For the reasons discussed above, Defendants’ Motion to Dismiss is GRANTED as to all claims. (ECF
No. 26.) Plaintiff is given leave to amend within thirty

74a
days of the date of this Order. Plaintiff ’s Motion for
Class Certification and Motion for a Preliminary Injunction are DISMISSED AS MOOT. (ECF Nos. 19,
20.)
IT IS SO ORDERED.
December 1, 2016
/s/

Otis D. Wright
OTIS D. WRIGHT, II
UNITED STATES
DISTRICT JUDGE

75a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ARLENE ROSENBLATT,
an individual, on behalf
of herself and all others
similarly situated,
Plaintiff-Appellant,
v.

No. 17-55879
D.C. No.
2:16-cv-04481-ODW-AGR
Central District of
California, Los Angeles
ORDER

CITY OF SANTA MONICA, (Filed Dec. 2, 2019)
a municipal corporation;
THE CITY COUNCIL
OF THE CITY OF SANTA
MONICA, a governing body,
Defendants-Appellees.
Before: SCHROEDER and NGUYEN, Circuit Judges,
and SIMON,* District Judge.
The panel has voted to deny the petition for panel
rehearing. Judge Nguyen has voted to deny the petition for rehearing en banc, and Judges Schroeder and
Simon have so recommended.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. See Fed. R.

* The Honorable Michael H. Simon, United States District
Judge for the District of Oregon, sitting by designation.

76a
App. P. 35. The petition for panel rehearing and the petition for rehearing en banc are denied.

